<html>
<title> - RIDDING CENTRAL AFRICA OF JOSEPH KONY: CONTINUING U.S. SUPPORT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
     RIDDING CENTRAL AFRICA OF JOSEPH KONY: CONTINUING U.S. SUPPORT

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 30, 2015

                               __________

                           Serial No. 114-99

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                        U.S. GOVERNMENT PUBLISHING OFFICE
96-818PDF                       WASHINGTON : 2015       
___________________ ______________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
                                
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota 
DANIEL DONOVAN, New York 
    

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York





    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Paul Ronan, co-founder and project director, The Resolve LRA 
  Crisis Initiative..............................................     4
Mr. Sasha Lezhnev, associate director of policy, Enough Project..    14
Ms. Francisca Mbikabele Thelin, founder and president, Friends of 
  Minzoto........................................................    22

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Paul Ronan: Prepared statement...............................     7
Mr. Sasha Lezhnev: Prepared statement............................    17
Ms. Francisca Mbikabele Thelin: Prepared statement...............    24

                                APPENDIX

Hearing notice...................................................    44
Hearing minutes..................................................    45
Mr. Sasha Lezhnev: Evidence of the LRA's presence in Sudan-
  controlled territory...........................................    46
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas: Nigerian President Buhari's speech to 
  the U.N. General Assembly......................................    54


     RIDDING CENTRAL AFRICA OF JOSEPH KONY: CONTINUING U.S. SUPPORT

                              ----------                              


                     WEDNESDAY, SEPTEMBER 30, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:06 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The hearing will come to order. And good 
afternoon to everybody.
    Since 1987, the Lord's Resistance Army, or LRA, has killed, 
raped, kidnapped, enslaved, or robbed thousands of people in 
the Great Lakes region of Africa and beyond. In October 2011, 
the Obama administration deployed about 100 military advisers 
to help Ugandan and other military forces in the region set out 
and capture or kill the members of a terrorist force that has 
now dwindled from thousands of fighters in late 1990s and early 
2000s to fewer than 200 today, but remains a very real danger 
to people in the east and central regions of Africa.
    This hearing will look at why the efforts to end the LRA 
are so critical for the international community and especially 
for the people who live in that region and how the United 
States counter-LRA program has worked so far.
    Today's hearing is being held even in the absence of the 
Department of Defense or the State Department, whose relevant 
officials are unavailable for a few weeks--and we will invite 
them and do a second hearing with them--because it will serve 
as an acknowledgment of the importance of countering the LRA 
prior to the administration's decision on whether to continue 
the program. The decision of renewing the American deployment 
will come in the next few weeks. We trust the administration 
will decide to continue this worthy effort.
    We hope to cover U.S. counter-LRA policy with 
administration witnesses, like I said. They have been invited, 
and we are just waiting for them to give us a date.
    One can use a number of metaphors to describe the LRA 
today. It is like a wounded animal, less capable but still very 
dangerous. It is like a vulture, feeding off the existing 
misery it finds in countries otherwise troubled by conflict. 
The LRA is like a fire that is tamped down but not extinguished 
and can reignite at any time. However, the danger posed by the 
LRA is not metaphorical. It is very real to those who still 
live in fear in eastern and central Africa and certainly to the 
hundreds of child soldiers whose lives have been harmed by its 
work.
    The LRA is a vivid example of how ethnic strife can provide 
a cover for wanton viciousness. In the name of protecting the 
rights of Uganda's northern Acholi tribe, LRA founder Joseph 
Kony has brought only wretchedness to his people and their 
neighbors as well as the people living in surrounding 
countries. Efforts to come to a negotiated settlement have all 
come to naught because Kony apparently has no coherent demands. 
His terrorist group seems to want nothing more than chaos, 
murder, and destruction.
    The international community has been much too quick to 
abandon humanitarian activities, largely because the number of 
victims has been reduced significantly. In confirmation 
hearings before the Senate Armed Services Committee last year, 
General David Rodriguez referred to the counter-LRA effort as 
``a good success story,'' citing the group's decline and the 
American determination to support African officials to finish 
off the LRA.
    Unfortunately, this is where the metaphors about the group 
must be kept in mind. Whenever the LRA has had a setback due to 
international efforts to eliminate it, the group's retaliation 
has been ruthless. Ongoing conflict in Central African 
Republic, South Sudan, and the eastern Democratic Republic of 
the Congo has provided a welcoming environment in which the LRA 
can hide and resume its deadly activities with less fear of 
regional government action against it. When you take your eyes 
off the LRA, they have enhanced maneuverability and opportunity 
to regroup.
    Thanks to the #Kony2012 campaign by the advocacy group 
Invisible Children, who also paid a visit to my office in New 
Jersey, LRA became notorious worldwide and garnered 
international support, especially among the young, on behalf of 
a robust counter-LRA effort. Yet the staying power of social 
media is fleeting. There are always new causes, also legitimate 
and important, to draw attention away. Remember the ``Bring 
Back Our Girls'' campaign on behalf of the Chibok schoolgirls 
kidnapped by Boko Haram?
    Our caring has to extend to the victims of the LRA and 
other such groups, which not only include those whom they 
attack but also those whom they cruelly use in their 
destructive campaigns. We have one such victim with us today, 
who can describe the ongoing desolation the LRA brings to so 
many young lives. We also have witnesses familiar and expert 
with the LRA and its terrorist activities, who will describe 
the ongoing threat that the group poses, however diminished 
their ranks may be.
    Countering terrorist groups cannot depend on Twitter 
campaigns. The United States and other members of the 
international community must retain our resolve to capture and 
remove the leaders of the LRA and any terrorist group that 
threatens the lives and wellbeing of innocent people worldwide. 
Whether such groups pose a direct, confirmable threat to the 
homeland or not, by terrorizing those whom we help they oppose 
U.S. interests, and they must be dealt with.
    I would like to yield to my good friend and colleague, 
Karen Bass, for any comments she might have.
    Ms. Bass. Good afternoon, everyone.
    Mr. Chairman, thank you for your leadership and for calling 
for today's hearing and the continuing U.S. support toward that 
effort.
    This hearing offers us an opportunity to discuss the 
current state of affairs related to the movements and 
activities of the LRA and its notorious leader. My hope is that 
today's hearing will inform us of what the next steps are that 
the U.S. Government should take to help end the violence, 
kidnapping, and abuse that has been the standard practice of 
the LRA for decades.
    I would also like to thank today's witnesses for agreeing 
to participate in the hearing, including regional experts from 
civil society, as well as Mrs. Thelin, who lost over two dozen 
members of her family in the Congo at the hands of members of 
the LRA.
    I commend your dedication and commitment to working on this 
issue and helping to seek an end to the senseless violence that 
it produces. I look forward to hearing your testimony on the 
latest developments in the search for Kony as well as your 
insights into the devastation the LRA has wrought throughout 
central Africa and what can be done to stop it.
    The Obama administration deployed close to 100 military 
advisers to Uganda in 2011 to help Ugandan and other military 
forces in the region to seek out and capture Kony and members 
of the LRA. The U.S. has also provided significant logistical 
support to Uganda's counter-LRA operations beyond its borders 
since 2008, while U.S.-based advocacy groups have contributed 
to U.S. policymakers' interest in the issue as well as public 
awareness among U.S. citizens.
    While it is reported, as the chairman mentioned, that the 
numerical strength of the LRA has dwindled to maybe as small as 
200 fighters today, their intimate knowledge of the 
inhospitable central African landscapes and total disregard for 
human life continues to make them a clear and present danger.
    Though it originated in northern Uganda, the LRA now 
operates across a broad range of remote border regions between 
the CAR, the DRC, South Sudan, and even Sudan, according to 
reports. I don't know if people saw the Washington Post article 
today.
    Mr. Chairman, did you mention that?
    And there is also the concern as to maybe cooperation with 
Seleka, and maybe we will hear about that today.
    Given the LRA's wide range of operations, I should also 
highlight the broad grouping of international bodies and actors 
involved in the effort to end the threat of this terrorist 
group. These include African governments, the U.N. political 
missions and peacekeeping operations, as well as the AU and the 
EU.
    In 2012, the AU launched a regional task force against the 
LRA, which is led by Uganda, though it hasn't reached its full 
authorized troop strength of 5,000. And this is the kind of 
collaboration that is necessary to deal with and address the 
cross-border dimensions of the LRA activities.
    In closing, I would like to encourage my colleagues in 
Congress and other U.S. Government agencies to sustain our 
effort to rid central Africa of Joseph Kony and to continue 
working with the international community to ensure that the LRA 
is no longer a threat to the innocent men, women, and helpless 
children it has preyed upon since its inception.
    I am committed to joining you all in that effort and hope 
to learn from today's hearing how I can and we can be of 
greater assistance.
    Mr. Smith. Thank you very much, Ranking Member.
    I would like to now introduce our three distinguished 
witnesses, who are expert and also extraordinarily brave in the 
work that they have done, and thank them for their leadership 
and for informing our subcommittee and, by extension, members 
of the full committee and the Congress by what you are able to 
convey to us, past and especially today as an update.
    We will begin with Mr. Paul Ronan, who is co-founder of The 
Resolve LRA Crisis Initiative and currently serves as the 
project director. He also co-manages the LRA Crisis Tracker, a 
project that provides analysis of trends in LRA violence and 
activity to policymakers, humanitarians, and affected 
communities. He travels frequently to Uganda and LRA-affected 
areas in the CAR, DR Congo, and South Sudan. He also a frequent 
contributor to media outlets, congressional briefings, and 
think-tank fora. Prior to co-founding The Resolve, he worked at 
Caritas International and Franciscans International's U.N. 
advocacy office in New York.
    We will then hear from Mr. Sasha Lezhnev, who is the 
associate director of policy at the Enough Project, where he 
focuses on peace, conflict, and corporate responsibility issues 
in central Africa. He is also founding director of the 
Grassroots Reconciliation Group, an organization that runs 
projects with former child soldiers in northern Uganda. He was 
based in Uganda for 2\1/2\ years as senior program officer with 
the Northern Uganda Peace Initiative and adviser to the chief 
mediator of the peace process with the Lord's Resistance Army. 
He is author of the book, ``Crafting Peace: Strategies to Deal 
with Warlords in Collapsing States.''
    And, finally, we will hear from Ms. Francisca Mbikabele 
Thelin, who was born and raised in Dungu territory in the DR 
Congo. She was a founding teacher of Minzoto School. Though she 
moved away from the DR Congo in 1989, she travels to Dungu 
biannually. Because Francisca's family in the Dungu region has 
suffered profound losses of life during the LRA violence, her 
commitment to improving conditions in Dungu is strong and very 
personal. She founded the Friends of Minzoto in response to the 
dire conditions, extensive suffering, and pleas for help that 
she encountered in that region in 2010. She has made numerous 
public presentations on DRC history, culture, and the ongoing 
humanitarian crisis at universities, schools at every level, 
community, educational, and church events.
    I would like to begin with Mr. Ronan.
    And thank you again, all three, for being here.

 STATEMENT OF MR. PAUL RONAN, CO-FOUNDER AND PROJECT DIRECTOR, 
               THE RESOLVE LRA CRISIS INITIATIVE

    Mr. Ronan. Chairman Smith, Ranking Member Bass, and members 
of the subcommittee, thank you very much for convening this 
timely discussion.
    I would like to express my deep gratitude for the 
bipartisan leadership that this subcommittee and Congress as a 
whole, has shown in support of efforts to stop atrocities by 
the Lord's Resistance Army, including the passage of the LRA 
Disarmament and Northern Uganda Recovery Act in May 2010.
    I have been traveling to areas that have been affected by 
the LRA for 10 years now, and I have seen firsthand how the LRA 
Disarmament and Northern Uganda Recovery Act set into motion a 
significant strengthening of the U.S. Government commitment to 
resolve the crisis, including the deployment of 100 U.S. 
military advisers.
    This support has greatly helped our African partners in the 
region to reduce the fighting capacity of the LRA by half from 
what it was in 2010, which was about 400. Kony now has fewer 
than 200 combatants left at his disposal, and this has greatly 
diminished the capacity of the LRA to commit atrocities. The 
graph up on the screen shows how the number of combatants has 
dropped. Killings by the LRA in eastern Central African 
Republic, northeastern Democratic Republic of the Congo, and 
western South Sudan have dropped dramatically, from 776 in 2010 
to just 13 in 2014.
    As encouraging as this progress has been, let there be no 
mistake: The LRA is not finished. Joseph Kony has outlasted 
three U.S. Presidents already, and, without renewed attention 
to this crisis, he will outlast both President Obama and the 
114th Congress. His LRA forces have abducted over 400 Congolese 
civilians so far this year, which is more than they abducted in 
any of the previous 4 years. And this demonstrates clearly, I 
think, the danger that if U.S. and regional partners withdraw 
before removing Kony the LRA could quickly rebuild and resume 
mass atrocities.
    The recent spike in attacks has also led to an increase in 
displacement and humanitarian needs, including in the areas 
where my colleague Francisca's family lives. And the next slide 
shows some of the trends there, including the uptick in 
abductions.
    Still, with less than 200 fighters remaining, the LRA is at 
its weakest point in more than two decades, and Congress can 
continue to play a galvanizing role in ending LRA atrocities 
for good. The Resolve is supportive of House Resolution 394, 
introduced in July by a bipartisan coalition of 12 
Representatives. The resolution outlines steps the 
administration should take to reinforce the counter-LRA 
strategy, including adjusting its priorities to put more 
emphasis on promising defection campaigns.
    My recommendation is that within the next 6 months the U.S. 
military double, literally, the saturation level and geographic 
scope of the defection messaging targeting the LRA. You can see 
from the next slide, which is a map, just how vast the area 
that the LRA is operating in is.
    We also urge Congress to ensure that the administration is 
adequately preparing for a post-Kony world. The LRA has long 
preyed on the communities that are marginalized by their own 
governments and face threats from other armed groups, and these 
challenges will remain long after Kony is finally brought to 
justice.
    The sectarian conflicts that have left dozens killed or 
injured in Bangui and other areas of the Central African 
Republic over the past several days is a sobering reminder that 
the U.S. counter-LRA strategy must be part of a broader, long-
term regional strategy that invests in strengthening fragile 
states and preventing mass atrocities.
    USAID has invested in several innovative early recovery and 
civilian protection programs in LRA-affected areas, but most 
communities have been severely underserved by the U.S. and 
other donors. Too often, programming in these areas has been 
underfunded, delayed, and hampered by a lack of proper 
coordination. For the U.S. counter-LRA strategy to truly bear 
lasting fruit, USAID should invest in programs that spur 
longer-term economic recovery, reinforce community cohesion, 
and holistically reintegrate those who escape from the LRA.
    In particular, I would like to reiterate that last point. I 
have interviewed dozens of men, women, and children who have 
risked rugged terrain, starvation, and Kony's wrath to escape 
the LRA. Most were abducted as kids. And each of their 
courageous attempts to reunite with their families is a 
testament to the strength of the human spirit. Still, many 
struggle to overcome the poverty, the medical problems, and the 
mental trauma inflicted by years in Kony's captivity. Helping 
those brave souls to reintegrate into their communities is 
equally, if not more, important than finally bringing Kony to 
justice.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Mr. Ronan follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                      ----------                              

    Mr. Smith. Thank you so very much for that excellent 
testimony. And, without objection, your full statement, which 
had even more data and information, will be made a part of the 
record, as well as for all of our other witnesses.
    We will now go to Mr. Lezhnev.

 STATEMENT OF MR. SASHA LEZHNEV, ASSOCIATE DIRECTOR OF POLICY, 
                         ENOUGH PROJECT

    Mr. Lezhnev. Thank you so much. As someone who has spent 
the last 12 years interviewing and running projects for former 
LRA combatants, I really deeply appreciate your attention and 
continued vigilance on this very important issue, Chairman 
Smith, Ranking Member Bass, and Mr. Meadows and other members 
of this subcommittee and I really appreciate and thank you for 
the opportunity to testify on this important issue right at 
this critical juncture in the fight against the LRA.
    From my years of working on the LRA, both with the Enough 
Project and in running projects for hundreds of former ex-
combatants with the Grassroots Reconciliation Group, I have 
observed that the LRA is, frankly, one of the most resilient 
rebel groups on the planet in the face of adversity. It would 
win any ``Survivor'' competition.
    Today, I am deeply concerned about the LRA's new trade in 
ivory and other commodities and its ability to regenerate 
itself going forward.
    Strong bipartisan support in Congress to end the LRA's 
brutality has made a major impact, as Paul noted and as you 
noted in your opening statements, in improving human security 
and preventing atrocities in this war-torn region. Congress' 
LRA Disarmament and Northern Uganda Recovery Act as well as the 
Obama administration's deployment of U.S. military advisers to 
the African Union forces in 2011 have helped lead to a 90-
percent decrease in LRA killings and a 30-percent decrease in 
attacks and have decimated its leadership.
    When I started working in northern Uganda, over 1.8 million 
people were displaced, 90 percent of the population. Today, 
that number is down to 200,000. That is almost a 90-percent 
decrease, which is a huge impact on people's lives in that 
region.
    But I am here to talk about how the LRA is not yet down and 
out, and, with a new trade in ivory, gold, and diamonds, it 
could make, in fact, a serious comeback, as it has done several 
times in the past.
    Today, the LRA is increasingly poaching elephants for 
valuable tusks, trading that ivory for ammunition, supplies, 
and food in Sudan with the likely complicity of the Sudanese 
Government. This is actually the subject of last month's 
National Geographic magazine, where explorer Bryan Christy 
manufactured a fake ivory tusk and tracked it from LRA-held 
areas in Congo through to Sudan.
    Critically, the LRA has a safe haven in Sudan-controlled 
territory Kafia Kingi. Joseph Kony has rarely left that area 
since 2011, and that is the chief area where the LRA trades 
ivory. Our team at Enough just spent a month in this area 
tracking the ivory trade and worked with the satellite company 
DigitalGlobe to help predict where the poaching might happen 
next, and here is what we found.
    So, first of all, the elephants in Garamba National Park in 
Congo, which is a UNESCO World Heritage Site, are rapidly 
decreasing as a result of the poaching. From 20,000 elephants 
in the 1980s, there are fewer than 1,800 today. And this is a 
worrying, more global trend, with an estimated 35,000 elephants 
killed per year for tusks.
    The LRA is one of the key armed groups responsible for 
poaching elephants in this area, along with Sudanese and South 
Sudanese poachers. There is one unit of LRA fighters that is 
permanently stationed in Garamba National Park under direct 
orders from Kony. And also under direct orders from Kony, 
including leadership from one of his sons, a second LRA unit 
then takes those ivory tusks to Sudan-controlled territories to 
trade them near a Sudan Armed Forces garrison in a place called 
Dafak, also in Kafia Kingi.
    The main ivory trading town is called Songo. Sudanese 
forces have reportedly also provided valuable intelligence to 
the LRA, warning them of impending attacks. The ivory is then 
traded on by truck to Nyala, the capital of South Darfur in 
Sudan, and then likely to Khartoum for export to Asia.
    Garamba National Park rangers say that if the LRA and other 
poachers are not stopped, the entire elephant population of 
that area could be wiped out.
    Along with ivory, the LRA is also starting to trade in 
diamonds and gold. These resources give the LRA the ability to 
regroup and rearm. Looting and then trading in these items 
allows the LRA the opportunity to acquire food, ammunition, and 
other supplies. Over the past several months, LRA defectors 
that we have interviewed have come out with large amounts of 
fresh ammunition, along with rocket-propelled grenades.
    You can trade 1 tusk for up to 25 boxes of bullets, and 
there are over 700 bullets in 1 box. It only takes one bullet 
to kill an elephant. This is critically important because the 
LRA already has weapons, both with its fighters and more guns 
buried in the ground, acquired from Sudan and from looting. So 
all it needs now are bullets, supplies, and Joseph Kony.
    Kony is still in command and is central to the group 
despite the group's leadership decimation. With him in charge 
and with new ammunition, the LRA can abduct new fighters. And 
although overall LRA attacks are down significantly, as Paul 
pointed out, abduction numbers are up this year.
    Now is the time to double-down on the U.S. counter-LRA 
mission and help end the LRA's horrific reign of atrocities 
against civilians once and for all. This could be done with a 
low-cost investment in a few key areas.
    First, the Obama administration should reauthorize the U.S. 
advisers beyond October, the U.S. military advisers, with the 
primary goal of bringing Joseph Kony to justice. Simply 
managing or containing the problem will not stop Kony.
    The U.S. mission should also provide additional airlift 
capacity to the AU forces and increase its efforts to get LRA 
fighters to defect from the group. I second Paul's 
recommendation on that. To that end, I urge you to sign on to 
House Resolution 394 on the LRA, a bipartisan resolution 
introduced by Representatives Jim McGovern and Joe Pitts.
    Second, the United States should take a leading role in 
addressing Sudan's complicity in aiding the LRA. Sudan again 
denies that they are sheltering the LRA despite a wealth of 
evidence. I attach that evidence, compiled from the Enough 
Project, The Resolve, and Invisible Children, for the record 
with your permission.
    Mr. Smith. Without objection, it will be made a part.
    Mr. Lezhnev. Thank you.
    The United States should deploy advisers close to the areas 
controlled by Sudan in Kafia Kingi so that it can gather 
precise intelligence on Kony's whereabouts.
    Third, the United States should help shut down this blood 
ivory trade. To boost efforts on the ground, Congress should 
increase assistance to the Fish and Wildlife Service for 
antipoaching work in central Africa, for which it has 
experience. And the U.S. advisers on the counter-LRA mission 
should work more closely with the park rangers and help 
interdict the trade from Congo to Sudan, which is now a known 
route. You can go on the National Geographic Web site and find 
that exact route.
    More broadly, the Obama administration's draft rules to 
help ban the ivory trade are an excellent step in the right 
direction, but they should also include only a small, de 
minimus provision for ivory sales, similar to what the State of 
New York has on the books for ivory laws.
    I commend the many members of this subcommittee, including 
yourselves, for signing on to the Global Anti-Poaching Act, 
H.R. 2494, introduced by Chairman Ed Royce and Ranking Member 
Eliot Engel, and I urge other members of the subcommittee to do 
the same.
    Finally, in the Fiscal Year 2016 appropriations process, 
Congress should not forget about the LRA and should continue to 
robustly support the counter-LRA operations. The U.S. 
Government deserves tremendous credit for sapping Kony's LRA of 
most of its strength and helping allow 1.6 million people to go 
home. However, the LRA has a history of regrouping, and we 
should not forget that. And so I am deeply concerned that its 
trade in ivory and other commodities could allow it to do so 
again. Now is not the time to pull the plug but, instead, to 
finish the job and bring Kony to justice.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Lezhnev follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                     ----------                              

    Mr. Smith. Thank you very much, Mr. Lezhnev, for your 
testimony.
    I would like to now ask Ms. Thelin if she would proceed.

   STATEMENT OF MS. FRANCISCA MBIKABELE THELIN, FOUNDER AND 
                 PRESIDENT, FRIENDS OF MINZOTO

    Ms. Thelin. Thank you. My name is Francisca Thelin. I want 
to sincerely thank the chairman, ranking member, and the entire 
subcommittee for this opportunity to speak today on behalf of 
those suffering from the violence of the LRA, the Lord's 
Resistance Army.
    Though I have lived in the United States for 26 years and 
am a U.S. citizen, I grew up in the Dungu territory in the 
Democratic Republic of the Congo, a region deeply affected by 
the violence of Joseph Kony and the LRA. I am the founder of a 
small nonprofit called the Friends of Minzoto, which supports 
local community efforts in the Dungu area to recover from the 
LRA violence.
    My dear friend Lisa Shannon authored a book entitled, 
``Mama Koko and the Hundred Gunmen,'' which tells my family's 
story of experiencing the LRA crisis firsthand. Since 2008, 28 
members of my family have been murdered by the LRA. Most were 
chopped with the machete, many in front of their loved ones. 
Six children in my family were abducted and forced to become 
LRA's sex slaves or child soldiers. Although one eventually 
escaped, he came home so psychologically damaged that he is a 
danger to our other children and cannot live at home. We can 
only assume that the others who have not returned home have 
died.
    At the age of 69, my mother spent months at a time hiding 
in the bush with no blankets or supplies, taking care of 
multiple babies and teenagers, and getting sick with pneumonia 
before coming back home to nothing. The LRA had looted 
everything.
    For 5 years, my family and every family in the Dungu 
territory lived in total terror because of the LRA. Unable to 
go to the fields to grow their crops, everyone was hungry. Many 
who did not die at the hand of the LRA died of starvation and 
malnutrition.
    Even now, the situation is not fully back to normal. 
Thousands of internally displaced families that took refuge in 
the Dungu years ago still live there with no land of their own, 
barely surviving day to day. Many of them live in meager homes 
next to the river, the only place where they could settle, and 
they are regularly flooded out of their homes when the rains 
come.
    Life for them is so difficult, but they are afraid to go 
home to their villages--and with good reason. Many of those who 
did go back to their villages were killed, or many are still 
being forced to give all their crops and their belongings to 
the LRA when they attack.
    When I was in Dungu in 2010 interviewing survivors of the 
LRA, I would ask them, what do you want from the U.S. 
Government? Their answers were always the same: We want peace, 
we want Kony out. I promised to share their message with my 
Government in the United States, but I wasn't sure exactly how 
I would do that. Today, I am finally able to deliver on that 
promise, and I am very grateful for this opportunity.
    So I am here today to ask you, Honorable Members, in the 
strongest possible terms to continue to support the African 
Union and the U.S. advisers in their efforts to end LRA 
violence. Please do not allow this mission to lose strength 
until the LRA is stopped and Joseph Kony and his leaders have 
been held accountable for their horrific crimes.
    Why is continued support from the U.S. so important when 
the LRA threat seems diminished? LRA attacks are still taking 
place. Particularly in the Congo, abductions by the LRA have 
increased over the past year, which further traumatizes the 
population. In the minds of the communities, the LRA rules the 
bush. But the bush is our bank; it is where we find food, where 
we clear land to cultivate our crops in order to feed our 
families and to earn livelihoods.
    I have story after story of my connection to people 
attacked by the LRA, but it would take days to tell them all, 
and they are very painful to share.
    As I close, I want to emphasize that these communities 
targeted by the LRA are severely neglected. They do not have 
resources on their own to get rid of the LRA. And they have 
suffered long enough. The commitment of the U.S. is critical to 
their survival and to lasting peace. Please, do not give up 
before the crisis is actually over.
    I am speaking for all Congolese enduring LRA violence when 
I thank you for all that the U.S. Government has already done 
to help bring this crisis to an end. In light of how far we 
have come and how precious these lives are, I urge you and 
every Member of Congress to stay committed to seeing LRA 
violence finally ended.
    Specifically, I ask you to support House Resolution 394, 
which reinforces the U.S. Government's commitment to ending LRA 
violence. Secondly, I urge you to provide funding in the U.S. 
budget that would support the local recovery initiatives in the 
LRA-affected communities. And, lastly, I ask you to use your 
position of influence to press Congo's Government to promote a 
free and fair election on time. I ask you to use your help to 
make sure that the communities like Dungu do not continue to be 
so marginalized and vulnerable to groups like LRA in the 
future.
    I want to thank you again for your care for families, like 
my own, who have suffered from this crisis. And I thank you for 
this opportunity to fulfill my promise to them and to represent 
their voices here in Washington.
    Thank you.
    [The prepared statement of Ms. Thelin follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                   ----------                              

    Mr. Smith. Ms. Thelin, thank you so very much for your 
testimony.
    We do have two votes on the floor, but we don't have to be 
there just yet, although in a moment or so. But we will take a 
brief recess and then come back.
    I would like to ask just a couple of opening questions.
    Ms. Thelin, your nonprofit supports recovery efforts for 
the victims of the LRA. What are the greatest needs? Are 
individuals, especially children and women, getting the 
psychological help that they need after being traumatized? Is 
the faith community stepping up, whether it be Christian or 
Muslim, to meet those needs, in your opinion?
    Ms. Thelin. Actually, I cannot really tell you that there 
is something happening to help them now. But it was in 2010 
when I was there, there was a group helping them, and it seems 
like they are struggling now with funds, funding. They don't 
have the money to continue. But there is nothing really at 
present.
    Mr. Smith. All right. I appreciate it.
    Would either of our other witnesses like to comment on the 
psychological component of helping those who have been 
traumatized?
    Yes, Mr. Ronan.
    Mr. Ronan. That is a great question. And I think that the 
answer is that very little support is now available to the 
people that escape the LRA.
    Many of them might receive maybe a few days, when they 
first come out, of some basic medical treatment or some 
counseling. But, over the long term, the children and the women 
and especially the adult men who do escape, all of whom were 
abducted as kids, receive very little support.
    And that is, I think, a problem that will be manifested and 
will continue for years in the future if these people are not 
able to properly reintegrate into their communities.
    Mr. Smith. Thank you.
    Mr. Lezhnev. I would just add, if I may, the scars of war, 
of being a child soldier don't disappear overnight. And, 
unfortunately, many NGOs and organizations have pulled out of 
northern Uganda because there is no longer active conflict 
happening there, and that is an area of tremendous need.
    The organization that I helped found, the Grassroots 
Reconciliation Group, runs a psychosocial trauma counseling 
project for roughly 700 ex-combatants and their families, but 
it is really a drop in the bucket when you think that the LRA 
has abducted some 66,000 youth. And if you have spent 5 or 10 
or 15 years in the bush, constantly being forced to kill your 
friends and your family members, those psychological traumas 
will not go away overnight.
    So there is a lot more need for assistance in that area. 
And our groups are putting together a letter exactly on this 
issue now. We will be happy to send it to you.
    Mr. Smith. Okay.
    Let me just ask you, Mr. Lezhnev. You make a very ominous 
warning that it could make a serious comeback, as it has done 
in the past. In my opening comments, I tried to emphasize that, 
and I know Ranking Member Bass feels the same way.
    Is there any belief or any expectation that the 
administration will not continue this vital program, again, 
which all three of you have wholeheartedly embraced and 
endorsed?
    Mr. Lezhnev. I think that there is still a debate happening 
within the administration between those who really want to see 
the job finished and those who say, well, the leadership is 
decimated, attacks are down, the capacity is lowered, let's 
just contain the problem and move on to other priority areas.
    Mr. Smith. Is it because of cost? I mean, what is the 
reason?
    Mr. Lezhnev. I think part of it is cost. Part of it are the 
growing crises in South Sudan and CAR, other priority areas.
    But, from our experience, as long as Kony is there, he is 
very skillful at getting new resources and surviving and moving 
to territories where he has a safe haven. So, as long as he is 
there, we need to continue working.
    Mr. Smith. The committee will stand in brief recess, 
subject to the call of the chair. And I thank you. And sorry 
for this delay.
    [Recess.]
    Mr. Smith. The subcommittee will resume its sitting. And, 
again, I apologize for that delay. Just a few additional 
questions. And I know Karen is on her way back, as well as Mark 
Meadows.
    Mr. Ronan, in your testimony, you talked about the Come 
Home defection campaign and how important that is. You make a 
point that I found very interesting. You talked about how some 
of the people, defectors, had walked for an entire month to 
reach the U.S. military base in eastern CAR.
    And I am wondering, is it because it is that dangerous to 
go anywhere else other than to the U.S. forces? And how is it 
that they knew where they were? A month of walking can take you 
many hundreds of miles. And I am just wondering if you could 
elaborate on that.
    Mr. Ronan. Yes. And thank you very much. That is, again, a 
very good question.
    And I think that, first of all, it is just important to 
reiterate the ability that Kony has to instill propaganda into 
the combatants in his force, which he has an advantage of, of 
course, because many of them were abducted when they were very 
young. So the starting point to try to convince these 
combatants to defect from the LRA is very difficult. It is very 
difficult to do that.
    So I really do think it is a testament to the ingenuity and 
the hard work of the U.S. advisers and the civil society 
partners that they work with that they have been able to devise 
messaging, whether it be by FM radio, by speakers that are 
strapped onto helicopters, or by leaflets, to really penetrate 
the propaganda that Kony tries to instill.
    And this most recent case from a few months ago, when these 
seven bodyguards to Kony who were operating near the Sudanese-
controlled areas of the Kafia Kingi enclave with Kony, when I 
interviewed them after they had defected, they said that it was 
a result of this messaging that they had received that has been 
supported by the U.S. military that they knew that they could 
safely defect to where the U.S. base was. And they knew where 
the U.S. base was as a result of that messaging.
    So for me, to talk to these guys who had been abducted 15 
years ago when they were very, very young and hear them talk 
about how the U.S. base was in many ways a beacon for them that 
they were trying to reach, and then they did reach there, and 
they were received and were able to return to their families, 
again, was just a powerful reminder that these defection 
campaigns can really have a positive impact.
    Mr. Smith. Let me just ask you--all of you, if you would 
like to speak to it, but you have testified that the U.S. 
Government has not dedicated the appropriate mix of flexible 
context-appropriate intelligence and airlift capabilities to 
pursue the LRA. And given the heavily forested areas in which 
they operate, why do you think this strategy has developed, and 
what impact has it had on the success of the counter-LRA 
program?
    And I would just note parenthetically that in Vietnam, 
there was the defoliant Agent Orange; obviously, it caused many 
of our servicemembers and Vietnamese to become very, very sick. 
I used to chair the Veterans' Affairs Committee, and the number 
of illnesses attributable to that are huge.
    But, since then, we have developed--and I have been to 
military bases where this technology is being deployed and 
actually affixed to helicopters--the look-down capability which 
is enormous for the U.S. military. Are we using that kind of 
capability? The ability to see through foliage is enormous, and 
I am wondering if that is being deployed, as far as you know.
    Mr. Ronan. I would say that to recognize the challenges 
that the U.S. advisers in the field are dealing with, the LRA 
is now really composed of 200 combatants that are spread over 
an area the size of California. So you don't want to 
underestimate how difficult it is to find them in this area.
    At the same time, I do think that the U.S. could do a 
better job of ensuring that the helicopters and the ISR assets 
that are deployed out to these regions are appropriate to how 
the LRA operates. And I think that that is why it is very 
important that the U.S. continue to try to make sure that these 
assets and personnel are deployed in areas near the Kafia Kingi 
enclave and where Kony himself is operating.
    As far as the specific technology that is being used now, 
unfortunately, I don't know exactly what that is. I don't have 
access to that. But I would say that we have seen a very 
positive trend in what the advisers have been doing over the 
past year or so of really trying to talk to as many people as 
they can and to develop human intelligence. Because the LRA is 
interacting with many people in these areas, whether they are 
trying to sell ivory or acquire food, and that intelligence has 
led to actionable operations in the past that have been very 
successful. So that is an alternative approach that I think can 
be very useful.
    Mr. Smith. Thank you.
    Mr. Lezhnev. I would just also add that I think that the 
location issue that Paul highlighted is very important, 
because, for a while, U.S. advisers were deployed in an area of 
southeastern CAR that was pretty far away, frankly, from a lot 
of the LRA operating areas, so Kafia Kingi in northeastern 
Congo. We are learning that the U.S. advisers are moving closer 
to the LRA areas of operation now, which is good. That is 
something we have been advocating for, frankly.
    And it is difficult to operate in those areas. I mean, 
these are areas with no roads at all. It takes quite a bit of 
capacity from airlift to actually get there.
    I think that the defection issue and location of defection 
areas is another important consideration that the U.S. advisers 
and the Obama administration could put some more effort into, 
in terms of providing some more of these locations for LRA 
fighters to defect, right? They shouldn't have to walk for 400 
miles to get there, because that really is the safest area. 
There have been LRA people, LRA members who have been lynched 
in certain areas, as communities are afraid of the fighters.
    So I think there could be some more efforts there, but most 
of the attacks are happening now in northeastern Congo, so 
there is a need there, in particular.
    Mr. Smith. Ms. Thelin, you said that the communities now 
feel that the LRA rule the bush. And I am wondering how this 
has impacted the relocation of villagers. Are people combining 
settlements or moving to what they perceive are safer zones?
    Ms. Thelin. In general, people who are in the town of 
Dungu, they are safer than the people who live in the villages. 
Because the LRA have changed their strategies now. They come 
publicly by the side road and captured people. And then they 
take two and hold two back. If they capture four of them, then 
they hold the two, and they give the two others money, send 
them to the market to buy food for them and bring it to the 
bush in order to release all the group. And they give them an 
ultimatum: Go to the market, buy food, bring it to us, and we 
will release all of you, or we kill all of you now. And they do 
as they are told, and they go buy food, they bring it. Once 
they bring it, then they will release them.
    So they don't live far from the road, and now they are not 
scared. And I think they playing a mind game, just the way they 
started. At the beginning, they were in the market, people were 
thinking, oh, they are nice, they are just looking for a place 
to settle and they are not bothering us. And then the attacks 
started. And now the feeling is that they are getting very 
strong and powerful. They have money. They have everything.
    According to people who escaped them--it was in July when 
my brother, who works for the early warning radio system--so 
his group went to this village. So he was sick that day, didn't 
go with them, but that group was captured by the LRA. And then 
they hold two of them, send two to the market to Dungu. So they 
come, and they noticed the authorities of what was happening. 
They said, okay, the group was captured by the LRA, they send 
us to the market, we are buying food, we are taking it back to 
them so in order to release the rest of the group who were 
there. And then they did, they took the food back.
    So when they were there, they see that the LRA have 
everything. They have a solar panel, they have a radio, they 
have machine guns, they have enough food, a lot of money. And 
they released them after 2 days, and they come home.
    So now is that the feel is that pretty soon the attacks 
will start again.
    Mr. Smith. We have all read this morning's front-page 
Washington Post story, and I am just wondering if you might 
want to comment. A very provocative headline: ``U.S. Troops 
Have Turned to Some Unsavory Partners to Help Find Warlord 
Joseph Kony.''
    And the article talks about how U.S. forces have begun 
working closely with Muslim rebels, known as Seleka, who 
toppled the central government 2 years ago. And then it goes 
on. One official described the group as the mafia.
    And yet, as you read on, the answer from National Security 
Council spokesman Peter Boogaard is that U.S. forces do not 
provide intelligence or operational assistance to Seleka 
factions or other armed groups, though he acknowledged that our 
military advisers may meet with actors who have information on 
LRA activities.
    I would appreciate your comments on the article, because I 
know you have all read it. The $5 million that have been 
offered by State, have there been any takers or anything close 
to someone providing actionable information about what could be 
done?
    And, again, if I could again circle back to your testimony, 
Mr. Ronan, when you said that 417 Congolese civilians so far 
this year have been abducted, more than they abducted in any of 
the previous 4 years, as if there might be a shift in their 
modus operandi, what happens to those abductees?
    And then the 200 that we keep talking about that are still 
Kony's killers, who are they? Are they child soldiers now grown 
up? If you could give us a sense, a profile of who we think 
they are, at least, it would be very helpful. All three of you.
    Mr. Lezhnev. I will just start off with the first question. 
You asked a lot of questions at the same time, Mr. Smith, but 
that is perfectly fine.
    So, with regard to the Seleka Washington Post article, 
quite frankly, I think this is very misleading. First of all, 
U.S. forces need to be operating in that area, which is close 
to where Kony is located and, clearly, they need to communicate 
with any authorities or forces in that area, former Seleka 
commanders. Seleka is no longer an active force itself. There 
are former Seleka commanders who are in control of that area.
    This is not an Islamist, a jihadist group. They are not 
establishing Sharia law or anything like that. They have been 
in control of that area for roughly 10 years. So if anyone 
wants to move in and out of that area, they, of course, have to 
communicate to them.
    We have talked to our folks on the ground in that area. We 
do not have any knowledge that the U.S. has provided any 
financial assistance to the Seleka. We would obviously strongly 
condemn the U.S. providing any assistance, financial 
assistance, to those rebels, but we do not have any 
information.
    And, again, we think it is very important for the U.S. to 
be present in areas close to where Kony is. Otherwise, we will 
continue circling around here for another decade with this 
mission.
    Mr. Ronan. I would just like to reiterate everything from 
what Sasha just said. You know, I think that the Washington 
Post article did outline, you know, some of the challenges that 
U.S. forces in the region face, but an Islamist group that they 
are partnering with is not one of them. I think that the 
terminology that was used there was just inaccurate.
    As has been said, what the U.S. troops are doing is they 
are talking to people who have knowledge about where Kony and 
his fighters may be. They are not doing that in exchange for 
material support or for doing joint operations or anything like 
that.
    And, as I said before, I think that the human intelligence 
piece of this operation is something that we should be praising 
and not something that we should be overly concerned about in 
the way that was represented in that article.
    The one thing that I will add on to that is I do think that 
it is important for the State Department and the U.S. to 
clarify is that whatever conversations are happening between 
the U.S. military and these former Seleka, to make sure that 
those conversations are being coordinated with the response to 
the broader conflict in the CAR, which, as we have noted, has 
gotten much, much worse in the past few days. Again, we can't 
see the LRA as in a vacuum. It is very much interconnected with 
what is happening in the broader region.
    On the question of the patterns of LRA abductions in the 
DRC, in Congo, fortunately, what we have seen over the past few 
years is, with the pressure that the U.S. and Ugandan troops 
are putting on the LRA, Kony doesn't really have the capacity 
to do the mass child abductions and train them to join the LRA. 
We have seen a few cases of that, but a vast majority of the 
people that have been abducted over the past few years are 
adults, who are used to carry goods from their community into 
the bush for the use of the LRA, and then they are released.
    And I don't want to understate or say that that is not 
important. Even being abducted for a few days is very 
traumatic. And the people in these areas often have not very 
many goods. So if you take their farming tools and their 
harvest and their seeds, then that can be really a terrible 
thing.
    And, as far as the 200 combatants left within the LRA, most 
of them, over 100, are Ugandans who were abducted as kids and 
are now adults. So they have really grown up within the LRA. 
And then maybe another 30 to 50 of them would be Congolese, 
South Sudanese, or central Africans who have been abducted in 
the past 4 or 5 years and may be a bit younger.
    Mr. Smith. The U.S. armed services that are deployed there, 
have there been any injuries, fatalities, years to date?
    Mr. Ronan. Not that I am aware of, no.
    Mr. Smith. I have other questions, but I will yield to my 
good friend Ms. Bass and then come back.
    Ms. Bass. Thank you.
    Once again, thank you all for your testimony and taking the 
time out today to speak with us.
    I wanted to ask several questions. I wanted to follow up on 
a question that the chairman asked that I don't think you guys 
responded to, and that is the $5 million.
    So I wanted to know, first of all, earlier this year, one 
of the LRA commanders was surrendered, captured--a little bit 
of difference there in terms of how people view it. What 
happened? Because if he surrendered or was captured, did 
anybody contribute to that? Is the $5 million still there? That 
is such a huge amount of money, it is hard for me to understand 
why that isn't enough to generate his capture.
    Mr. Ronan. So, as far as Dominic Ongwen, who was a senior 
LRA commander indicted by the ICC in 2005, in late 2014, Kony 
basically put him under arrest within the LRA and indicated 
that he was going to kill him. So Dominic Ongwen, with the help 
of some other fighters within the LRA, was able to escape.
    And then, as you said, the sequence of events after that is 
a bit fuzzy, about whether he was captured or whether he 
surrendered. He was certainly trying to surrender. And he came 
into the custody of some former Seleka, who got in touch with 
the U.S. military in the town of Obo. And it is unclear if 
these former Seleka were even aware of who he was and the 
reward that they may have been eligible for, but they 
transferred him to the custody of the U.S. military. He was 
then taken to The Hague.
    So, again, to our knowledge, the $5 million, no part of 
that has been disbursed for Dominic's arrest or his capture.
    One of the challenges that I think that we have seen, 
talking to the U.S. military as they have tried to implement 
this plan, is that many people in the region don't believe it. 
And it is not because the $5 million is too little; it is 
because that is such a huge number that many people simply 
think that it is a trick. So, I think that there is a learning 
process that needs to happen about how to advertise this in a 
way that will incentivize people to contribute.
    Ms. Bass. I can actually understand that.
    Ms. Thelin, could you respond to that question? I mean, if 
$5 million is so much that it seems a trick--and I could kind 
of understand that, because it sounds like trillions--should it 
would be done differently?
    And so your thoughts, too, on two things: One, why that 
hasn't delivered Kony; and then, two, in response to what Mr. 
Ronan was saying, does it need to be done differently? Is it a 
smaller amount? Outreach? How is it done?
    Ms. Thelin. Well, thank you for your question, but that is 
not in my expertise.
    Ms. Bass. Oh, no, no. Well, but I am asking you that from 
the perspective of you being from the area and given your past 
and continued relationship with the people, the culture, the 
community, the ties. That is why I am asking you.
    Ms. Thelin. So, first of all, I didn't know anything about 
the money.
    Ms. Bass. You didn't know about the $5 million?
    Ms. Thelin. I didn't know about the money.
    Ms. Bass. Oh, boy.
    Ms. Thelin. And, second of all, people are really thankful 
for when the African Union troops got there, they were so 
happy, and with the U.S. advisers, and the things were going 
very good. And the people actually started staying outside. 
They feel like there is life coming back.
    But they still wonder why it is taking too long to capture 
Kony. You have done all these things; U.S. advisers are there, 
the African troops are there. But in the town of Dungu itself, 
life is okay, but it is overpopulated because everybody in the 
villages moved into the town, who used to be only for 20,000 
people, but now I don't know the number, but I feel like the 
roads are packed. They are just thinking that it is taking too 
long to capture Kony.
    Ms. Bass. Well, that is pretty dramatic for me to hear that 
you were not aware of it, considering you are active in the 
area. So maybe there is something that needs to be examined in 
terms of how we are getting the word out there.
    I wonder, Mr. Lezhnev, what happens the day after we 
capture Kony? I worry sometimes that our focus--and, obviously, 
I would like to see him captured. But, you know, with Boko 
Haram, with al-Qaeda, with the Taliban, I mean, we have 
captured leaders before, only to have them replaced the next 
day.
    So, given that the LRA has really been reduced in size, do 
we know anything about intelligence, second-line leadership, 
what would happen the day after we captured Kony?
    Mr. Lezhnev. It is a great question. I think it is one that 
we have all been debating and talking about for several years.
    Frankly, the rest of the LRA's leadership is very much 
decimated according to what it used to be. There were several 
commanders who were there from the late 1980s and early 1990s. 
They have all either been killed, defected, or are awaiting 
trial in The Hague.
    The ones who are rising up in the leadership now are Kony's 
sons, who are young, 21, 23, 24. They are not--I do not think 
they have the capacity to lead this type of rebellion.
    I have spoken to so many ex-combatants who speak about 
Kony's ability and spiritual powers, and that is why they 
follow him. And they believe those spiritual powers. And he 
has, of course, manipulated his control of information so that 
he knows when something is going to happen, and so that will 
appear to someone locally as him having powers.
    But in terms of what would happen after we would capture or 
kill Kony, I think that there would probably be a couple of LRA 
groups who would try to operate in the local areas. But if they 
knew that Kony was not there backing them up, giving them 
orders, resupplying them with arms, ammunition, food, medicine, 
et cetera, you know, the defections would increase pretty 
dramatically.
    I don't think that the U.S. should give up then, that that 
should be the end of our program. I think that there need to be 
programs--recovery programs, rehabilitation programs, 
psychological programs like we talked about earlier, which are 
very important to help rebuild those areas. We are trying to 
get a specific road funded out in that area, which really 
hamstrings movement throughout that whole region. So that----
    Ms. Bass. Who are you trying to get----
    Mr. Lezhnev. I would want to say something one other thing 
with regard to the $5 million.
    Ms. Bass. No. Who are you trying to get the fund the road?
    Mr. Lezhnev. Well, the U.N., African Union----
    Ms. Bass. So go ahead about----
    Mr. Lezhnev [continuing]. World Bank.
    Ms. Bass [continuing]. The $5 million.
    Mr. Lezhnev. So, with the $5 million, one interesting thing 
that we uncovered in our new interviews with ex-combatants is 
that, for the first time in our lifetime of working on the LRA, 
there has been a serious attempt on Joseph Kony's life, that 
his bodyguards actually tried to kill him. They failed, and so, 
therefore, they ran very quickly away. But, you know, that 
speaks to some of the pressure.
    It is really too bad that many local communities are not 
aware of this $5 million reward, and so we obviously need to do 
a much better job at communicating that and also communicate it 
in local terms. But several of the military folks in LRA, they 
are aware of it.
    And, also, I think that helps Kony stick in an area that is 
pretty depopulated. There is, of course, the possibility and 
many rumors circulating that he would go to south Darfur, which 
would be further in Sudanese territory, et cetera. The fact 
that he is not moving in there, I think, is largely a result of 
this $5 million, because people are more aware there, and they 
would like to get that money. And that is a much more populated 
area.
    Ms. Bass. Did the bodyguards escape? You said they ran 
away. Did they escape?
    Mr. Lezhnev. They defected, yeah.
    Ms. Bass. They did?
    Mr. Lezhnev. Uh-huh.
    Ms. Bass. Do you know if there is any effort to involve 
them in the search for him?
    Mr. Lezhnev. Absolutely. Yeah.
    Do you want to talk about that?
    Mr. Ronan. Yeah. Just to add that these same defectors that 
tried to kill Kony were the ones that I was talking about 
before. When they did escape, they made a beeline for the U.S. 
base, because they knew that that was a place where they----
    Ms. Bass. I see.
    Mr. Ronan [continuing]. Could safely go. And as a result of 
intelligence that they gave to the U.S. and the Ugandan troops, 
there was an arms cache and some food stores that were 
destroyed on the central African side of the border with Sudan.
    Ms. Bass. You know, you mentioned at the beginning--I am 
not sure which one; it might have been you, Mr. Ronan--about 
the gold and diamonds, I think. Where is that coming from? Is 
that coming from the DRC? How are they lined up to get that? I 
understand the poaching; that is obvious.
    Mr. Lezhnev. So it is mostly looting in the Central African 
Republic. That area is pretty well known for its gold and 
diamond mines. Of course, CAR diamonds are some of the most 
famous in the world for their quality.
    The defectors that we interviewed talked about Kony having 
jars of gold nuggets and, sort of, a half-liter bottle of 
diamonds waiting to sell for the right time. There were some 
rumors that he was going to buy anti-personnel land mines to 
encircle him so that no one could attack his positions. That, 
of course, doesn't work very well if you have helicopters and 
so forth, but anyways.
    So, yeah, it is mostly looting and from artisanal mining. 
They have not set up, as far as we know, more complex conflict-
minerals type of operations where they actually operate mines. 
Not yet.
    Ms. Bass. Thank you.
    And, Ms. Thelin, you might have mentioned this earlier 
before I returned, but could you talk about your organization, 
the work your organization does? And then do you receive any 
support from the U.S. Government?
    Ms. Thelin. Well, my organization is very small. I can call 
it just a baby organization. So I got my 501(c)(3) in December 
2014. And basically I started working at a school. I give them 
nice, clean water. They dig a well and put a pump. And then now 
we are in the process of building latrines and handwashing 
stations.
    And, also, I have big ambitions, but I don't know where the 
money would come from. But it will happen someday.
    Ms. Bass. It is okay. What are the ambitions? Ambitions 
first, money second.
    Ms. Thelin. So I want to help because to have a good 
community, that means a healthy community. So if we want to be 
really good, like, we need strong people, good health, so they 
need clean water. And I have to build some 60 more wells and 
build latrines. Now they don't have public latrines. And we 
have many people, and it is really not good, the sanitation is 
not good.
    And also I need, like, some kind of equipment for the 
hospital. We have a big hospital, it is an original hospital. 
But the only thing, when I visited this January, the only 
equipment that was there was a 60-year-old microscope and a 
refrigerator with vaccines. So people with broken legs and all 
kinds of critical conditions, they take the bus and go on this 
nightmarish road, dusty road, to Goma or to Bunia to get the 
treatment. They don't have x-ray, MRI, or any kind of salt. And 
that is my ambition.
    So, this summer, I made some Congolese food and some 
barbecue in my backyard to raise money for latrines, and I did 
well. I think I did a little over $10,000.
    Ms. Bass. That is great from a barbecue.
    Ms. Thelin. Some people of goodwill helped me. They were 
just so passionate about my speech and what my community is 
going through, and they helped, and now that latrine is in the 
process.
    Ms. Bass. Great. Thank you. Thank you very much.
    Thank you, Mr. Chair.
    Mr. Smith. Thank you very much, Ms. Bass.
    Let me just ask you, Mr. Lezhnev. You have reminded us of 
the terrible toll that the LRA has imposed upon innocent 
people--the abduction of more than 66,000 children, 100,000 
deaths over the past 28 years. And then you talked about the 
displaced, down from 1.8 million to 200,000 today.
    200,000 is an enormous number of people displaced, and I am 
wondering if you can tell us, maybe break that out a little bit 
further--who they are, where they are, how they are faring, and 
the prospects, if there are any, in the near term, intermediate 
term for return.
    And then you also, in talking about the blood ivory trade, 
point out that--and I thought this was amazing, sadly, tragic--
that you can trade one tusk from an elephant for up to 25 boxes 
of bullets. And there are over 700 bullets in a box. That comes 
out to 17,500 bullets. That is a lot of ammo. And you have 
talked about how Kony seems to have more resources like more 
ammo recently.
    Who is buying the ivory, and how much of that clientele 
might be Americans?
    Mr. Lezhnev. I will answer the ivory question first, and I 
will defer to Paul on the displacement figures.
    With regard to the ivory, we are heavily investigating 
that. It is pretty difficult to access the Kafia Kingi area 
because it is controlled by Sudan, and they don't like to allow 
visas for people like us on the panel to access that area. But, 
nevertheless, we are doing our best to investigate it, and 
particularly with LRA defectors who were involved in the ivory 
trade.
    I interviewed one of the big LRA ivory traders a few months 
ago. There are a couple of buyers that are based in Sudan. 
There are some merchants in this town called Songo. We are told 
that there are some Sudan Armed Forces commanders who were also 
buying the ivory. They obviously have the bullets. The LRA is 
also needing food and medical supplies and so forth, so the 
local merchants will supply those. And then it mainly gets 
traded to Asia.
    So there is a lot more effort needed in terms of helping 
law enforcement inspect ports. And that trade is likely going 
from Port Sudan on to places like Dubai and then onward to 
China, and so there is a need to help the customs and border 
patrol and law enforcement in those areas to intercept those 
containers.
    Frankly, right now, it is pretty difficult to identify 
which containers they are, but we started a new initiative at 
Enough called The Sentry, and The Sentry is really conducting 
these investigations into the financing of conflicts. So we 
hope to come with new information about this, about which 
containers need to be intercepted and which traders need to be 
sanctioned.
    Mr. Ronan. And on the issue of displacement, I want to 
thank you, actually, for how you framed that. Because I think 
many times people say, oh, there has been a drop from 1.8 
million to 200,000, and that is not very many. And you are 
absolutely right to point out that is an enormous amount of 
people. And, in fact, the vast majority of them are Congolese 
and live right in the areas near where Francisca is from.
    And I would also like to say that there are some analysts 
that actually think that that 200,000 number is quite a bit 
higher.
    And just to reiterate, the reason why many people are 
displaced, even if the number of attacks has gone down, is 
because the memory of the massacres that the LRA did in 2008, 
2009, and 2010, they are never going to leave the memories of 
the people that had to witness them. So, even if the LRA is not 
as violent as it once was, the legacy that they have really has 
a ripple effect that will keep people displaced as long as Kony 
is free.
    I would also like to point out that, in these same areas 
where a majority of displaced people live in Congo are, due to 
a drop in funding from the donor community, there has been a 
withdrawal of 16 of the 19 international humanitarian groups 
that had been providing much-needed food, water, and 
sanitation. Many of the groups that were operational there have 
had to withdraw, and it is not because there is a decrease in 
the number of people that need the services.
    And, of course, I have seen, myself, the incredible work 
that the Congolese themselves are doing in trying to address 
these needs, but there is a need for renewed international 
funding, as well.
    Mr. Smith. The African Union forces that are being advised 
by the 100 Americans deployed there, could you maybe give us 
some insights that might be unique to your experiences about 
who they are, how well they are doing, how many are there? What 
kind of capabilities do they have, like airlifts, or is that 
all ours? I am just wondering how robust of an effort is that 
by the AU.
    Mr. Ronan. Yeah. Thanks.
    On the question of the AURTF and the troops that are 
deployed out there, again, I want to recognize the bravery of 
many of those soldiers, who are often not very well-equipped 
and are tasked with walking through some dangerous, dangerous 
jungles in order to find dangerous people.
    Now, that said, it is unfortunate that I have to report 
that none of the countries that have dedicated troops to the AU 
force to track the LRA have been able to fulfill the 
obligations that they signed up for.
    And this, again, brings back the issue of regional 
instability, where in South Sudan and in the Central African 
Republic we have seen, you know, massive problems that have 
prevented those governments----
    Mr. Smith. How far short have they been?
    Mr. Ronan. I believe that the Ugandan Army has come the 
closest. They have around 1,000 troops, I believe, is the 
number that they said that they have dedicated, which is about 
half of what they were committed for. And the Ugandan troops 
are really doing the bulk of these operations. They are the 
ones that we can largely attribute the decrease in the number 
of combatants to.
    The South Sudanese and the central Africans really have 
hundreds, if not dozens, of troops that they have been able to 
dedicate, which is far, far lower than what they had said.
    There has been a ray of hope, I think, with the U.S. 
advisers working with the very small number of Congolese troops 
that have been doing operations in and around Garamba Park, 
which is where the LRA gets much of its ivory. So that hasn't 
provided much success yet, but I think it is a positive step.
    Mr. Smith. Can I just ask you, should the administration 
phase out or terminate the U.S. deployment, what impact would 
that have on the Ugandans and others in terms of their 
commitment to troops?
    Mr. Lezhnev. It would have a devastating and debilitating 
impact.
    Paul and I were witness to the solely Ugandan-led 
operations for many years in northern Uganda and further. 
Frankly, although, overall, over many years, it was a war of 
attrition and LRA numbers slowly went down, there were so many 
botched operations, many times when the Ugandans supposedly 
wouldn't have the fuel for a helicopter to go and chase Kony. A 
third of the Ugandan Army were listed as ghost soldiers during 
that time.
    So the intelligence collection, the efforts to pursue Kony, 
the decimation of their leadership--again, four of the five top 
commanders are no longer in action--those are results of 
successful operations that the U.S. has helped really 
coordinate and really improve the capacity. So if the U.S. 
advisers were to go away, I think we would definitely see a 
resurgence in the LRA.
    Mr. Smith. A very timely caution. And we will convey that 
to the administration immediately and take your words, if you 
don't mind, backed up by our observations. And I am sure Karen 
and I and others on the committee will want to put into a 
letter immediately that kind of question, because that would be 
devastating.
    I would like to yield to Sheila Jackson Lee, the gentlelady 
from Texas.
    Ms. Jackson Lee. Mr. Chairman, forgive me for rushing in 
and rushing out. I want to thank you for your courtesies. I am 
not a member of the committee, and you have always extended to 
me a courtesy.
    Forgive me. The loud phone that was ringing was calling me 
to the floor, so I apologize.
    I want to thank Ms. Bass, as well, for always being 
gracious. This is a passion of mine, the continent. And these 
issues of conflict, we have worked on these for a number of 
years. So I want to thank you for your leadership and the 
leadership of this subcommittee.
    I will be asking cross-examination questions, and I thank 
you for indulging me on these.
    It looks as if Mr. Kony has been here since the beginning 
of civilization. It looks like it has been so long that my 
frustration level has gone--now you are telling me that his 
children--and if we are here and blessed by life and you come 
back and tell me his grandchildren, then I know that we are--
not that you are doing something--that we haven't done what we 
needed to do.
    So if I might draw something to the chairman's attention, 
and I want to submit into the record--and please note that I am 
going to make the connection, as we do sometimes in the 
courtroom in a prosecution case. But I want to note, Mr. 
Chairman, the speech of President Buhari of Nigeria before the 
United Nations, and I want to commend some language very 
quickly.
    I would ask unanimous consent if I might put this in the 
record.
    Mr. Smith. Without objection, so ordered.
    Ms. Jackson Lee. He speaks about peace. He talks about the 
sustainable efforts of the United Nations. And he says, Nigeria 
has contributed to U.N. peacekeeping efforts in Ethiopia, 
Liberia, Sierra Leone, et cetera, just to reflect upon what 
they have done in the past.
    Then he goes on to say that ``[p]eace . . . is close to the 
hearts of Nigerians, as we are in the front line in the war on 
terror. Boko Haram's war against the people of Nigeria, Chad, 
Niger, and Cameroon may not attract as much worldwide attention 
as the wars in the Middle East'' but the people are suffering.
    ``This war is about values between progress and chaos; 
between democracy and the rule of law. Boko Haram celebrates 
violence against the weak and the innocent and deplorably, they 
hide behind their perverted interpretation of Islam. Boko Haram 
is as far away from Islam as anyone can think of.''
    So I make the nexus to--first, I want to congratulate the 
newly-elected President, Mr. Buhari. We met with him in 
Nigeria, and he made a commitment that he was going to end the 
siege of Boko Haram by the end of 2015.
    So I raise these questions about the involvement--first, my 
number-one question is--and let me mind my manners and thank 
all of the witnesses.
    And, particularly, Ms. Thelin, thank you for your passion. 
And, of course, $10,000, as you well know, the story of the 
fishes and loaves--you may know it; it is in the Christian 
faith--which means you get a little bit and then it multiplies. 
And we look forward to seeing your work multiply.
    But my question is to you. And I again want to offer 
sympathy to Ms. Thelin for losing over two dozen of your family 
members, and I think sometimes we tend to forget that.
    But on this issue of Mr. Kony, who is now passing his 
legacy on, I have several questions. One, where is the African 
Union in this, and where are the surrounding nations? I know, 
obviously, in central Africa, he is surrounded by Uganda, 
Rwanda. But where is the African Union, as its ability under 
its charter to utilize troops in this instance?
    The other is on the question of the gold, the diamonds, 
and, obviously, the ivory. What role do American consumers, 
purchasers, individuals like the dentist who went to Zimbabwe 
almost as I was there and that unfortunately saw the demise of 
Cecil the lion--but what role do we play in that?
    And have you any comment on the--or let me say that I thank 
them, but I just want to know what the comment might be as the 
U.S. special operations are pointedly working and have drawn 
together some unique characters as their collaborators under 
the African Command.
    I happen to be a strong supporter of AFRICOM, because it 
was under our watch a couple years ago that we fought for 
AFRICOM--in this instance, the Foreign Affairs Committee and 
the Congressional Black Caucus. And I think they play a vital 
role for peace in Africa.
    So I see you taking notes, so I will yield on those 
questions. And I know that you will, in your answers, as you 
did to the chairman, say what we can do. But I don't think I 
can hear one more moment that the grandchildren now have taken 
over from Kony without us bringing this to an end.
    Let me thank you very much.
    Ms. Thelin. So I would have to say that, when the African 
Union got to Dungu, everybody--I received a lot of calls from 
my family that everybody was happy that their presence was 
there at that time, because in 4 years that was the first time 
people could be outside of the compound in the morning, early 
morning or in the evening, the hours that mostly LRA was 
supposed to attack.
    And, also, when U.S. special advisers came, everything 
seems to be nice. But, again, it just looks like they are not 
pursuing Kony, and it is taking too long. Because even though 
the presence is there, the LRA are still abducting people. They 
will come past the United Nations compound--I don't know how--
and in a few meters from the compound and abduct people in the 
light, bright light day, and attack and killing.
    So people sometimes are so disappointed that, okay, America 
is a superpower, so if really they decided to capture Kony, 
they would do so in no time, but it is taking too long. But 
they are thankful that you are doing what you are doing 
already, and they are hoping that he will be captured some time 
soon.
    Ms. Jackson Lee. Thank you, ma'am. And I would only say to 
you that, when we have our U.S. special ops on the ground, you 
can be assured they are focused and pointed, and maybe 
sometimes unseen, but purposely functioning.
    I hope that the chairman--I heard his question before, but 
I would like to find a way to get a further answer from the 
African Union--not from you; I heard what you said--for their 
enhanced work. They may be at the limits of what they can do. 
And with that collaboration, the African Union of course doing 
what they are doing and the limits of what we can do with our 
particular guidelines of use on the continent, I can assure you 
that the special ops of the United States military, 
particularly AFRICOM there, that they are focused. But I thank 
you.
    You two gentlemen, if you could take a stab at the other 
two, and I will listen as I have to run to the floor. But thank 
you so very much.
    Thank you, madam, very much for that answer.
    Ms. Thelin. Thank you.
    Mr. Lezhnev. Thank you so much for your questions.
    Just regarding the ivory and the gold and the diamonds, 
most ivory goes to China for consumption there, but there is 
still some that comes here. And so Congress' efforts to combat 
wildlife trafficking are very important. And the new Obama 
administration draft regulations that are starting to put in 
place a ban on the ivory trade in the United States are very 
important.
    The Fish and Wildlife Service came out recently with a de 
minimis exception for some very limited ivory trade, for 
example, in bows of violins and cellos and those kind of 
things. There is a danger that if you allow that de minimus 
exception to be too high that, in fact, that would be a major 
loophole, and we would not want that. You can break a tusk into 
100 pieces----
    Ms. Jackson Lee. Yeah.
    Mr. Lezhnev [continuing]. Or 1,000 pieces, you know, that 
doesn't make the trade any less valuable.
    So what we really need to do is cut that trade down and 
make sure that that de minimus exception is very low. So any 
efforts from Congress to weigh in with the administration on 
that issue would be more than welcome.
    New York State already has that de minimus exception. 
California is also passing a law on this, waiting for the 
Governor's signature.
    So with regard to pressing China on this issue.
    Ms. Jackson Lee. Yeah.
    Mr. Lezhnev. We were very happy to see the President 
pressing the Chinese President just last week on the ivory, and 
they did come out with a pretty strong statement on that. But 
that needs followup. This is a pretty lucrative business out 
there.
    With regard to gold and diamonds, gold is still a commodity 
that is used for money laundering, terrorist financing. There 
was a recent FATF report which talked about gold and money 
laundering in use by various rebel groups around the world, 
including in Congo. And, in particular, there are some conflict 
traders out there that need to be the focus of investigations 
and targeted sanctions.
    We, ourselves, are investigating some of those in the 
Middle East at the moment and will be happy to provide the 
subcommittee with more information on that as we get it. We are 
writing a report and have some whistleblowers within some of 
these organizations that are trading the conflict gold.
    I will let Paul answer, though.
    Ms. Jackson Lee. Thank you very much. Thank you.
    Mr. Ronan. On the AU involvement, I think that the African 
Union's approach to counter the LRA was unique, in the sense 
that the force that they have deployed is an AU-authorized 
force and not an AU-mandated force. And that distinction has 
basically meant that the AU itself is providing very little 
support to the Ugandan, the South Sudanese, the Central 
African, and the Congolese troops that are out there. So it is 
really up to the countries themselves to equip their troops, 
which would be different than how most AU and U.N. peacekeeping 
operations work.
    And, unfortunately, if the LRA is operating in your 
country, it is the canary in the coal mine. It is not the 
reason why your country is allowing a group like this to 
operate, but it is taking advantage of that.
    So, by leaving it up to the countries themselves to provide 
all of the support to their troops, we are left where we are 
now, which is that the Ugandans are really the only force out 
there that is capable of really pursuing the LRA, and even 
their capacity has been very, very limited.
    So I think that this has revealed some of the weaknesses 
from an AU and an international perspective as far as how they 
approach this and reinforces the need to make sure that we have 
adequate troops there and that they have the equipment that 
they need to actually pursue the LRA in an effective manner.
    Ms. Jackson Lee. Mr. Chairman, thank you very much.
    Thank you so much. You have given me work to do.
    Thank you so very much, Mr. Chairman, for your kindness.
    Mr. Smith. Thank you. We are glad to have you.
    That concludes the hearing. I, first of all, want to just 
thank you on behalf of the subcommittee for your testimonies 
and your leadership. It is a privilege to receive expert 
testimony from such highly informed, highly motivated, and wise 
leaders. We really benefit greatly. The people who are 
suffering will benefit from this, as they have already by your 
leadership.
    And we will contact the administration; I know that is why 
we did it now, to get your insights right now so that they make 
the right decision, which I believe they will do, to keep this 
important program going.
    So anything you want to ever add within the period of time 
for this hearing but also on the issue itself, particularly as 
it relates to the other countries. The members of this 
subcommittee, including the chairman and Greg Simpkins, our 
staff director, and other members of the staff, we are in 
constant contact with the leaders of these countries and if 
there is something we need to convey to any of these other 
people, please let us know, and we can bring that word to them, 
again, from such experts.
    The hearing is adjourned.
    [Whereupon, at 4:05 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               
   Material submitted for the record by Mr. Sasha Lezhnev, associate 
                   director of policy, Enough Project
                   
                   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Material submitted for the record by the Honorable Sheila Jackson Lee, 
          a Representative in Congress from the State of Texas
          
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>
</pre></body></html>
